Exhibit 2
Supreme Court of Georgia Judgment/Remittitur (August 5, 2019)

REMITTITUR
SUPREME COURT OF GEORGIA
Case No. S19A0665

Atlanta, August 05, 2019

The Honorable Supreme Court met pursuant to adjournment.
The following order was passed:

MARK JOSEPH DERRICO v. THE STATE
This case came before this Court upon an appeal from the Superior Court Court
of Forsyth County and it is considered and adjudged that the judgment is affirmed
and that the remittitur be transmitted with the attached decision.
All the Justices concur.

Lower Court Case No.
14M4321B
Associated Cases
A19A0945
Costs paid: $80.00

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta September 04, 2019
I hereby certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said Court hereto
affixed the day and year last above written.

